No. 19-1212
IN THE SUPREME COURT OF THE UNITED STATES
ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.
PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITIONERS’ SUGGESTION OF MOOTNESS AND MOTION TO VACATE THE
JUDGMENT OF THE COURT OF APPEALS, via e-mail and first-class mail, postage
prepaid, this 1st day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,367 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-1212
MAYORKAS, ALEJANDRO N., SECRETARY OF
HOMELAND SECURITY, ET AL.
INNOVATION LAW LAB, ET AL.

STEVEN ART
LOEVY & LOEVY
311 N. ABERDEEN ST.
3RD FL
CHICAGO, IL 60607
312-243-5900
STEVE@LOEVY.COM
BLAINE BOOKEY
THE CENTER FOR GENDER AND REFUGEE
STUDIES
200 MCALLISTER STREET
SAN FRANCISCO, CA 94102
415-565-4877
BOOKEYBL@UCHASTINGS.EDU
MELISSA CROW
SOUTHERN POVERTY LAW CENTER
1101 17TH STREET, NW
SUITE 705
WASHINGTON , DC 20009
202-355-4471
MELISSA.CROW@SPLCENTER.ORG
LINDA DAKEN-GRIMM
MILBANK LLP
21029 CENTURY PARK EAST
33RD FLOOR
LOS ANGELES, CA 90067
424-386-4000
IDAKIN-GRIMM@MILBANK.COM

CHRISTOPHER M. EGLESON
SIDLEY AUSTIN LLP
555 WEST FIFTH STREET
LOS ANGELES , CA 90013
212-896-6108
CEGLESON@SIDLEY.COM
KATRINA EILAND
ACLU FOUNDATION IMMIGRANTS' RIGHTS
PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-343-0770
KEILAND@ACLU.ORG
JORDAN M. ENGELHARDT
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212-336-2407
JENGELHARDT@PBWT.COM
MUHAMMAD U. FARIDI
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE3 AMERICAS
NEW YORK, NY 10036
212-336-2000
MFARIDI@PBWT.COM
ILANA B. GELFMAN
JONES DAY
100 HIGH STREET
BOSTON, MA 02110
617-960-3939
IGELFMAN@JONESDAY.COM

BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
JASON A. LEONARD
HOGAN LOVELLS US LLP
390 MADISON AVENUE
NEW YORK, NY 10017
212-918-3782
JASON.LEONARD@HOGANLOVELLS.COM
JOSHUA S. LIPSHUTZ
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON, DC 20036
202-955-8500
JLIPSHUTZ@GIBSONDUNN.COM
JUDY RABONIWITZ
ACLU FOUNDATION IMMIGRANT'S RIGHTS
PROJECT
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2618
JRABINOVITZ@ACLU.ORG

PATRICIA LEE REFO
AMERICAN BAR ASSOCIATION
321 NORTH CLARK STREET
CHICAGO, IL 60654
312-988-5000
ABAPRESIDENT@AMERICANBAR.ORG
ANA C. REYES
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, N.W.
WASHINGTON, DC 20005
202-434-5000
AREYES@WC.COM
SEAN RIORDAN
ACLU FOUNDATION OF NORTHERN
CALIFORNIA
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-621-2493
SRIORDAN@ACLUNC.ORG
NICOLE M. RYAN
SIDLEY AUSTIN LLP
555 CALIFORNIA STREET
SUITE 2000
SAN FRANCISCO, CA 94104
415-772-1250
NICOLE.RYAN@SIDLEY.COM
ZACHARY C. SCHAUF
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
ZSCHAUF@JENNER.COM

MILA SOHONI
UNIVERSITY OF SAN DIEGO SCHOOL OF
LAW
5998 ALCALA PARK WAY,
SAN DIEGO, CA 92110
917-499 0116
SOHONI@SANDIEGO.EDU
JUDD E. STONE
SOLICITOR GENERAL OF TEXAS
P.O. BOX 12548
AUSTIN, TX 78711-2548
512-936-1700
JUDD.STONE@OAG.TEXAS.GOV
MARY-CHRISTINE SUNGAILA
BUCHALTER, A PROFESSIONAL CORP.
18400 VON KARMAN AVE.
SUITE 800
IRVINE, CA 92612
949-760-1121
MSUNGAILA@BUCHALTER.COM
STEVEN WATT
ACLU FOUNDATION HUMAN RIGHTS
PROGRAM
125 BROAD STREET
18TH FLOOR
NEW YORK , NY 10004
215-519-7870
SWATT@ACLU.ORG
GRACIE WILLIS
SOUTHERN PROVERTY LAW CENTER
150 EAST PONCE DE LEON AVENUE
SUITE 340
DECATUR, GA 30030
404-221-6700
GRACIE.WILLIS@SPLCENTER.ORG

